APPENDIX TO THE PETITION

United States v. Bernard Moore
954 F.3d 1322 (11th Cir. 2020)

Final Judgment in a Criminal Case
Southern District of Florida No. 16-cr-20836
Docket No. 194
Entered on September 27, 2017

Order of the Eleventh Circuit Court of Appeals
Denying Moore’s Timely-Filed
Petition for Rehearing
Entered on September 10, 2020

30

United States v. Moore (11th Cir. 2020)

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
BERNARD MOORE, DERRICK
MILLER, Defendants - Appellants.

Appellants Bernard Moore and Derrick
Miller (together, "Appellants") appeal their
convictions for narcotics trafficking and
firearms possession. Appellants argue, among
other things, that: (1) the district court erred
in allowing them to be shackled during trial;
(2) the district court mishandled a jury note;
and (3) their 18 U.S.C § 922(g) convictions
should be vacated under Rehaif v. United
States, 139 S. Ct. 2191 (2019). After careful
review of the record and briefs, and with the
benefit of oral argument, we affirm
Appellants' convictions and sentences^

No. 17-14370
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
March 31, 2020
Summaries:

I. BACKGROUND

Source: Justia

The Drug Enforcement Agency ("DEA")
and Federal Bureau of Investigation ("FBI")
investigated Michael Fonseca and Michael
Lewis for suspected narcotics trafficking in an
effort to identify their supplier. The
investigation focused on an apartment in
Miami, Florida that law enforcement believed
was a stash house (the "Stash House.") On
December 2, 2015, a confidential informant
conducted a controlled buy. The confidential
informant met Fonseca in his car. After telling
the confidential informant that he would
retrieve the heroin "from my dog," Fonseca
went to the Stash House, where he met Miller,
and both went inside. When they

The Eleventh Circuit affirmed appellants'
convictions and sentences for narcotics
trafficking and firearms possession. The court
held that the district court did not plainly err
in allowing appellants to be shackled during
trial; the district court did not abuse its
discretion in addressing the jury note and
declining to conduct a Remmer hearing;
although the indictment omitted the mens rea
element for appellants' 18 U.S.C. 922(g)
charges, this error did not deprive the district
court of jurisdiction, requiring vacatur under
Rehaif v. United States, 139 S. Ct. 2191
(2019); and the government's failure to prove
the now-requisite mens element did not
constitute a plain error. Finally, the court held
that appellants' remaining claims were
without merit and did not warrant discussion.

Page 3
emerged from the Stash House, Fonseca
returned to the confidential informant’s car
and handed him a heroin sample. Law
enforcement recorded the conversations
between Fonseca and the confidential
informant, and, using surveillance footage
later recovered from the Stash House, was
able to determine that Fonseca had
subsequently walked to the Stash House
before returning to the confidential
informant's car to conduct the transaction.

[PUBLISH]
D.C. Docket No. i:i6-cr-2o836-PCH-3
Appeals from the United States District Court
for the Southern District of Florida
Page 2
Before ROSENBAUM and TJOFLAT, Circuit
Judges, and PAULEYA

On January 8, 2016, DEA agents
observed Moore escorting Lewis into the
Stash House and then saw Lewis leave

PAULEY, District Judge:
-1-

United States v. Moore (11th Cir. 2020)

18 U.S.C. § 922(g) (Count 4); and possession
of firearms in furtherance of drug trafficking
on January 10, 2016 in violation of 18 U.S.C. §
924(c) (Count 5). The government also
charged Moore with possession with intent to
distribute a controlled substance on
November 2, 2016 in violation of 21 U.S.C. §
841(a)(1) (Count 8). Finally, the government
charged Miller with possession with intent to
distribute a controlled substance on
December 2, 2015 in violation of 21 U.S.C. §
841(a)(1) (Count 2); possession with intent to
distribute a controlled substance on
November 2, 2016 in violation of 21 U.S.C. §
841(a)(1) (Count 6); and being a felon in
possession of a firearm on November 2, 2016
in violation of 18 U.S.C. § 922(g) (Count 7).

holding what appeared to be a bag. When
DEA agents stopped and searched Lewis's
vehicle, they recovered heroin from two bags
on the vehicle's floor.
On January 10, 2016, DEA agents
executed a search warrant on the Stash
House. Once inside, DEA agents discovered a
security camera system recording Appellants'
comings and goings. Fortuitously for law
enforcement, Appellants preserved the
surveillance footage depicting them entering
and leaving the Stash House, locking and
unlocking the door, carrying firearms, and
patrolling the perimeter. The surveillance
footage showed Appellants inside the Stash
House the day before the search. Law
enforcement recovered large amounts of
narcotics, including marijuana, hydrocodone,
ethylone, heroin, powder cocaine, and crack
cocaine, as well as narcotics paraphernalia.
During the search, DEA agents also seized
Miller's identification cards and a loaded .357
caliber pistol with Moore's

Page 5
Prior to trial, Appellants stipulated that
they had prior felony convictions. During
trial, Appellants were shackled. The trial
record is bereft of any explanation for this
security measure. In fact, the only reference
to shackling at trial occurred when Miller
asked permission to examine a witness
himself and, outside the jury's presence, the
district court acknowledged a logistical issue
because he was shackled. The district court
resolved the matter by permitting Miller to
question the witness while seated at counsel
table with the assistance of his attorney.

Page 4
DNA on the trigger. Additionally, DEA agents
recovered two firearms from vehicles parked
outside the Stash House: a .45 caliber pistol
similar to one depicted on surveillance
footage of Miller on January 6, 2016 and a
9mm pistol with Miller's fingerprints on its
magazine.

During their deliberations, the jury sent a
number of notes seeking guidance from the
district court. Jury Note No. 6 on the second
day of deliberations posed the following
request:

On November 2, 2016, Appellants were
arrested. Law enforcement searched Miller's
residence and discovered narcotics, drug
paraphernalia, and a firearm.
The government charged Appellants with
conspiracy to distribute a controlled
substance from December 2, 2015 through
January 10, 2016 in violation of 21 U.S.C. §
846 (Count 1); possession with the intent to
distribute a controlled substance on January
10, 2016 in violation of 21 U.S.C. § 841(a)(1)
(Count 3); being felons in possession of
firearms on January 10, 2016 in violation of

Huck,
Honorable
J.
Various members of the jury
would like to speak with you
directly about their safety upon
the conclusion of the trial. Can
we have a couple of minutes to
discuss this with you?

-2-

United States v. Moore (11th Cir. 2020)

In response to that jury note, Miller's counsel
moved for a mistrial, which the district court
denied. The government proposed that the
district court advise the jurors that there was
no danger and that they should resume their
deliberations. Appellants' counsel requested
that the district court interview each juror
who expressed safety concerns.

A JUROR: Because I am afraid.
I don't know if I have to put my
name on some paper or
something like that if I—no? If
the decision is not guilty—
THE

COURT:

I'm

sorry?

After conferring with counsel, the district
court spoke with the jury foreperson:

A JUROR: —I'm afraid of that. I
mean
sorry.
guilty,

Page 6

THE COURT: Okay. So have
you—is there any incident or
has anybody said anything to
you or is there anything that's
happened outside of this
courtroom that gives you—

THE COURT: I got your note.
I've conferred with counsel. I
would be more than happy to
discuss this issue with any juror
who feels that it would be
appropriate to discuss it with
me on a one-on-one basis. Bring
them into the courtroom, and
we will discuss it with them.
And then we will proceed
accordingly and see what comes
out.

A JUROR: No, no, I'm afraid
because if the decision is guilty,
I don't know if the family of
the—
THE
COURT:
Okay.
I
understand.
I
think
I
understand your concern. But
has there been any threat or any
indication by some sign or some
gesture or anything of that
nature or anything outside of
this courtroom that was said to

So if I can have those peoplejust go back and say, whoever
wants to come out and have that
discussion, it will be just the
judge and the court reporter,
and the court security officer of
course.

Page 7

A JUROR: Thank you, Your
Honor.

you or you did that would
suggest that you have these
feelings or cause you to have
these
feelings?

Thereafter, the district court engaged in
the following colloquy with a juror in camera:

A JUROR: No, no, no, no, no. I
just want to know if I don't have
to put my name on anything.

THE COURT: All right. You
indicated that you wanted to
speak
to
the
Judge?

THE COURT: No.
A

JUROR:

Yes.
The district court thanked the juror and
asked the court security officer to inquire
whether any other juror wished to speak with

THE COURT: What do you
want to speak to me about?

itCSS

-3*

United States v. Moore (11th Cir. 2020)

the court. A second juror came forward and
the following in camera colloquy ensued:

A JUROR: No, but just how my
mind works is a little bit—

THE
COURT: And your
foreperson has indicated that
you want to talk to the Court, to
the
Judge.

THE COURT:
enough.

Okay.

Fair

A JUROR: Yeah, just was—

A PROSPECTIVE JUROR: I'm
my
own
enemy.

THE COURT: Sit down, relax,
just
take
it
easy.

THE COURT: We are all that
way.

A PROSPECTIVE- JUROR: Just
was concerned how the process
goes when we would leave the
courthouse. Are we leaving at
the same time as family
members are leaving? Are our
names documented on the
transcripts where someone
obtain
could
them?

A JUROR: I confuse myself. You
know, things are just crazy in
this world and you don't know.
THE COURT: That concern
about leaving at the same time,
we can certainly take care of
very
that
easily.
A JUROR: That's what everyone
else said, so I think we will be
fine after, that. Thank you so
much.

COURT:
You
THE
are
concerned about after the case
is
finished?
A

JUROR:

Yeah.

THE COURT: Will you see if
there's anybody else in there.

THE COURT: We can help you
with that. That shouldn't be an
issue. That's your concern?

A JUROR: No, I spoke for
everyone.

THE COURT: Has there been
anything specific that was said
to you or any threat made to you
or any gesture made to you or
anything done in this courtroom
that caused your specific
concern?

THE COURT: Just ask them. If
there is anybody else who wants
to speak to me, I will be glad to
do
so.
A PROSPECTIVE
Thankyou.

Page 8
A

JUROR:

JUROR:

No other jurors came forward to speak
with the district court. The district court then
summarized the two in camera juror
interviews for counsel and the parties:

No.

THE COURT: And have you
done anything outside this
courtroom that caused you any
specific
concern?

THE COURT: Anyway, I had the
interview. There were two
jurors. I will give you my
-4-

United States v. Moore (11th Cir. 2020)

The Court and the parties agree
that there is no reason for any
concern about the safety of any
juror in this case. Therefore the
Court further instructs that you
should continue to deliberate on
the issues before you and should
not let any such concerns be
part of your consideration in
your further deliberations.

impression. It's not as big an
issue or deal as, frankly, I was
concerned about. One expressed
an issue about leaving the
courthouse after
Page 9
a verdict. The other was
concerned about did she have to
write—sign something or—I
didn't ask her specifically, but I
assume she was talking about
signing the verdict. She's not the
foreperson. I asked them if
there was
anything
that
happened in this courtroom that
would suggest there a threat,
anything said to them either in
or outside of the courthouse,
any gesture made to them. They
all have denied that. I said was
there anything outside the
courtroom that caused you any
concern. They all denied that. It
was, I wouldn't say quite a
nonevent, but it was about as
close to being a nonevent as one
would hope would be the case.

Later that day, the jury returned a
verdict. The jury convicted both Appellants
on Counts l, 3, 4, and 5, and Miller on Count
6. However, the jury acquitted Moore on
Count 8 and Miller on Counts 2 and 7.
The district court sentenced Moore
principally to 240 months of imprisonment
and Miller principally to 142 months of
imprisonment.
II. DISCUSSION
A. Shackling
Page 10

Appellants argue that the district court
erred in shackling them during trial. Indeed,
Appellants assert that the district court's
failure to conduct any hearing on the record
to determine whether that security measure
was necessary constitutes reversible error. We
disagree.

That's my report to you. I would
suggest that we proceed this
way, that we give them an
instruction and make it an
instruction similar to the one
that was given in May Collins
case using the exact same
language except I would add
some language stating the Court
is further instructing them so
that it becomes a little more
definitive.

We typically review a shackling
determination for abuse of discretion. United
States v. Baker, 432 F.3d 1189,1245 (11th Cir.
2005), abrogated on other grounds by Davis
v. Washington, 547 U.S. 813, 821 (2006).
However, since Appellants did not raise this
issue with the district court, we review for
plain error. Puckett v. United States, 556 U.S.
129, 135 (2009); see also United States v.
Davis, 754 F.3d 278, 283 (5th Cir. 2014)
("Because Davis did not object during the
bench trial to the requirement that he stand
trial handcuffed and shackled, our review is

Thereafter, Appellants moved to strike
those two jurors. The district court denied
their motion and counsel then agreed on the
following response to Jury Note No. 6:

-5-

United States v. Moore (11th Cir. 2020)

"district court is required to place the reasons
for its decision to use such measures on the
record" so that a reviewing court can properly
evaluate whether such measures were
appropriate. United States v. Durham, 287
F.3d 1297, 1304 (11th Cir. 2002). Here, the
record offers no guidance regarding the
decision to employ physical restraints.

limited to plain error."). Under the plain error
standard, "there must be (1) error, (2) that is
plain, and (3) that affects substantial rights. If
all three conditions are met, an appellate
court may then exercise its discretion to
notice a forfeited error, but only if (4) the
error seriously affects the fairness, integrity,
or public reputation of judicial proceedings."
Baker, 432 F.3d at 1203 (citation omitted).

Page 12
In Deck v. Missouri, the Supreme Court
held that the routine shackling of defendants
during a criminal trial, absent "the presence
of a special need," was unconstitutional. 544
U.S. 622, 626 (2005). The Supreme Court
reasoned that shackling can (1) affect the
presumption of innocence, (2) infringe on
defendants'

Deck announced that, "given their
prejudicial effect, due process does not permit
the use of visible restraints if the trial court
has not taken account of the circumstances of
the particular case." Deck, 544 U.S. at 632
(emphasis added). It is unclear if Deck
mandates a hearing in order for a district
court to employ nonvisible restraints.
However, Appellants could not survive plain
error review regardless of whether Deck
applies. Accordingly, we need not reach that
question.

Page 11
ability to communicate with their lawyers and
participate in their defense, and (3) impugn
the dignity of the judicial process. Id. at 63032. However, the Supreme Court noted that
in some circumstances, "these perils of
shackling are unavoidable." Id. at 632. At
times, district courts oversee trials of
dangerous defendants who pose risks in
courtrooms. Accordingly, the constitutional
due process requirement "is not absolute" and
"permits a judge, in the exercise of his or her
discretion, to take account of special
circumstances, including security concerns,
that may call for shackling." Id. at 633. The
Supreme Court recognized "the important
need to protect the courtroom and its
occupants" and emphasized that "any such
determination must be case specific; that is to
say, it should reflect particular concerns, say,
special security needs or escape risks, related
to the defendant on trial." Id.

Any error here—if it exists—would not
warrant reversal. To survive plain error
review, "the error must have affected the
appellant's substantial rights, which in the
ordinary case means he must demonstrate
that it affected the outcome of the district
court proceedings." Puckett, 556 U.S. at 135
(quotation marks omitted). With respect to
the first concern laid out by the Supreme
Court in Deck, there is no indication in the
record that the jury was aware of the shackles.
Moreover, the jury reached a split verdict,
acquitting each of the Appellants of at least
one charge—an unlikely outcome had the
presumption of innocence been undermined
before the verdict. Regarding the second Deck
consideration, the record indicates that
Appellants' ability to participate in the trial
was not affected. Indeed, Miller examined a
witness. As to the third Deck concern, we do
not see how shackling in this case impacted
the dignity of the judicial process. Shackling
is permitted—albeit

such
particularized
Here,
no
determination of the security needs was
memorialized on the record. In fact, the trial
transcript contains no reference to shackling
aside from the colloquy concerning Miller's
request to examine a witness. Typically, a

Page 13
-6-

United States v. Moore (11th Cir. 2020)

concern, assuring the juror that his or her
name would not appear on the verdict sheet.
The juror raised nothing further. Every
indication from the transcript is that the
district court and the juror were engaged in
conversation and may have simply been
talking over each other; often, a challenging
colloquy for a court reporter to capture.

usually with analysis on the record as to why
physical restraints are necessary. Accordingly,
the district court did not plainly err in
shackling Appellants .3
We admonish district courts, though, that
in the typical case, the record should reflect
why restraints are necessary. These security
measures should not be the norm, and it is
not overly burdensome to articulate why they
are needed. Moreover, a defendant would be
hard-pressed to argue error, plain or
otherwise, if he or she failed to lodge an
objection to the judge's stated justification.
Cf. Puckett, 556 U.S. 129 at 134 ("[T]he
contemporaneous-objection rule prevents a
litigant from 'sandbagging' the courtremaining silent about his objection and
belatedly raising the error only if the case
does not conclude in his favor.") (citations
omitted).

Further, there is no evidence that the
jurors' personal safety concerns affected their
impartiality. Ultimately, the jury reached a
split verdict. By convicting Appellants on
some counts and acquitting on others, the
jury carefully examined the evidence and
reached an impartial verdict. See Skilling v.
United States, 561 U.S. 358, 395 (2010)
(noting that a split verdict suggested the jury
was not infected by outside influence); United
States v. Dominguez, 226 F.3d 1235, 1248
(11th Cir. 2000) ("The careful weighing of
evidence inherent in a split verdict makes the
verdict itself evidence that the jury reached a
reasoned conclusion free of undue influence
and did not decide the case before the close of
evidence." (quotation marks omitted)).

B. The Jury Note
Appellants contend that the district court
mishandled the jury note. With the benefit of
the trial transcript, Appellants assert that the
district court cut off the first juror as that
juror was attempting to articulate certain
concerns. Next, Appellants argue that the
district court provided counsel with a
misleading summary of the in camera juror
interviews. Finally, Appellants maintain that
the district court erred in failing to conduct a
Remmer hearing. We disagree with each of
these contentions.

Page 15
Appellants also take issue with how the
district court summarized its juror interviews.
They contend that the district court failed to
advise counsel that the concerns expressed by
two jurors permeated the entire jury.
However, the district court's incomplete
summary was harmless. Having lodged an
objection, Miller's trial counsel preserved the
issue for appeal. We have the benefit of
reviewing the transcript of the juror
interviews, an opportunity not afforded to
Miller's counsel at trial. That transcript does
not alter our analysis or add value to Miller's
objection at trial.

Page 14
We review a district court's decisions
regarding juror misconduct for abuse of
discretion. United States v. Sammour, 816
F.3d 1328, 1336 (11th Cir. 2016). Appellants
contend that the district court interrupted the
first juror, preventing that juror from fully
explaining his or her concern. However, the
juror clearly articulated a concern about
names appearing on the verdict form. The
district court responded directly to that

Appellants contend that had trial counsel
been armed with this information, he would
have moved for every juror to be questioned
individually. But the district court would not
have been under any obligation to conduct
-7-

United States v. Moore (11th Cir. 2020)

additional applications they may wish to
make.

such an inquiry. Indeed, interacting with
jurors during deliberations is a core
discretionary function for trial judges and
should be exercised with great care. Had the
district court inquired further, it "could have
backfired by raising concerns in the minds of
the jurors that were not there before."
Sammour, 816 F.3d at 1339. Given the
unjustified nature of the jurors' fears, it would
not have been prudent for the district court to
lend credibility to those concerns by
questioning each juror.

Appellants also contend that the district
court erred in not holding a Remmer hearing
to examine each of the jurors. Due process
"entitles a defendant to a hearing in the trial
court to ascertain actual prejudice following
an allegation of extrinsic contacts with the
jury." Crowe v. Hall, 490 F.3d 840, 847 (11th
Cir. 2007) (citing Remmer v. United States,
347 U.S. 227, 229 (1954)).
Page 17

Nevertheless, because the district court
never
"had
acknowledged
that
it
encountered" a similar situation with a
deliberating jury, we believe it would be
helpful to provide guidance to district courts
on interviewing jurors in camera. The

Appellants misconstrue the standard for
a Remmer hearing. A district court must
conduct a Remmer hearing when there is
evidence
of
outside
influence.
See
Watchmaker, 761 F.2d at 1465 ("[T]he failure
to hold a hearing constitutes an abuse of
discretion only where there is evidence that
the jury was subjected to influence by outside
sources."). Here, there was no such evidence.
The district court inquired—and both jurors
affirmed—that there were no outside
influences
propelling
their
concerns.
Therefore, the district court did not abuse its
discretion in addressing the jury note and
declining to conduct a Remmer hearing.

Page 16
best course of action largely follows the
procedure the district court employed here.
When learning that one or more jurors in a
criminal trial have security concerns, the
district court should confer with counsel to
discuss the contours of an in camera
interview. After a district court speaks with a
juror in camera, it is entirely appropriate to
summarize its assessment of the interview on
the record for the benefit of the parties. Such
a summary can often tell the parties more
than a transcript because the judge can
describe the affect of the juror, as the district
court did here when he noted that the
situation "was about as close to being a
nonevent as one would hope would be the
case." However, to avoid the kind of skirmish
presented on this appeal, the district court
can also share the transcript of the in camera
interview with the parties. That can be done
by having the court reporter read it back to
counsel. See, e.g., United States v.
Watchmaker, 761 F.2d 1459, 1464 (11th Cir.
1985) ("A transcript of the conversation was
prepared and was distributed to all parties
after the meeting."). Finally, the district court
can confer with counsel and deal with any

C. Rehaif v. United States
In June 2019, after the parties fully
briefed this appeal, the Supreme Court
decided Rehaif v. United States, 139 S. Ct.
2191 (2019). There, the Supreme Court
clarified that, "in a prosecution under [18
U.S.C.] § 922(g) and [18 U.S.C.] § 924(a)(2),
the Government must prove both that the
defendant knew he possessed a firearm and
that he knew he belonged to the relevant
category of persons barred from possessing a
firearm." Id. at 2200.
In response to this intervening authority,
the parties filed supplemental briefs.
Appellants invoke Rehaif to challenge both
the district court's subject matter jurisdiction
-8-

United States v. Moore (11th Cir. 2020)

and the merits. We address both in turn,
beginning with the threshold issue of
jurisdiction.

On or about January 10, 2016,
in Miami-Dade County, in the
Southern District of Florida, the
defendants, DERRICK MILLER
and BERNARD MOORE, having
been previously convicted of a
crime
punishable
by
imprisonment for a term
exceeding
one
year,
did
knowingly possess a firearm and
ammunition in and affecting
interstate
and
foreign
commerce, in violation of Title
18, United States Code, Section
922(g)(1).

Page 18
a. Jurisdictional Defect
Appellants—in an attempt to avoid the
plain error standard—argue that because
their indictments failed to allege their
knowledge of their felon status, the
indictment failed to allege a crime, depriving
the district court of jurisdiction. We disagree.
Federal courts are courts of limited
jurisdiction, imbued with the authority to
hear cases and controversies as prescribed by
the Constitution or federal statute. See U.S.
Const, art. Ill, § 2; see also United States v.
Hudson, 11 U.S. 32, 33 (1812) ("All other
Courts created by the general Government
possess no jurisdiction but what is given them
by the power that creates them, and can be
vested with none but what the power ceded to
the general Government will authorize them
to confer."). Congress has conferred
jurisdiction
over
federal
criminal
prosecutions to the district courts. 18 U.S.C. §
3231-

The indictment further identified the
specific
firearms
and
corresponding
ammunition Appellants possessed. This
tracks—and cites—the language from 18
U.S.C. § 922(g)(1), which states: "It shall be
unlawful for any person . . . who has been
convicted in any court of, a crime punishable
by imprisonment for a term exceeding one
year . . . to . . . possess in or affecting
commerce, any firearm or ammunition."
This indictment was clearly sufficient
prior to Rehaif. While the indictment does
not allege that Appellants were aware of their
status as felons at the time they possessed the
firearms, the text of 18 U.S.C. § 922(g)
contains no such requirement. In Rehaif, the
Supreme Court interpreted the statutory
language of 18 U.S.C. § 922(g) as requiring a
defendant to have knowledge of his status.
Reading this knowledge requirement into the
statute while also holding that indictments
tracking the statute's text are insufficient
would be incongruous. Although the
government may be well advised to include
such mens rea allegations in future
indictments, that language is not required to
establish jurisdiction.

There is no dispute that the indictment
failed to allege a now-requisite mens rea
element of 28 U.S.C. § 922(g). However,
Appellants conflate the lack of subject matter
jurisdiction with the failure to allege a crime.
The standard for whether an indictment
sufficiently alleges a crime is not demanding.
An indictment tracking the statutory language
and stating approximately the time and place
of an alleged crime is sufficient. See United
States v. Brown, 752 F.3d 1344, 1353 (11th
Cir. 2014).
Page 19

Page 20

Here, the indictment plainly meets that
standard. The indictment stated, in pertinent
part:

in
-9-

Because there are occasions when defects
an indictment affect subject matter

United States v. Moore (11th Cir. 2020)

jurisdiction, it is worth delving into the
distinction. Supreme Court precedent focuses
on whether the indictment alleges "offenses
against the laws of the United States." United
States v. Williams, 341 U.S. 58, 65, (1951).
The absence of an element of an offense in an
indictment is not tantamount to failing to
charge a criminal offense against the United
States. However, if the charged conduct itself
is not criminal, then an offense against the
United States has not been pled and the
district
court
lacks
subject
matter
jurisdiction.
The Supreme Court has provided
guidance to lower courts regarding when
defects in an indictment touch subject matter
jurisdiction. Indeed, Rehaif is not the first
time the Supreme Court has read additional
requirements into a statute while an appeal
was pending and subsequent jurisdictional
challenges arose. In United States v. Cotton,
the district court imposed a sentencing
enhancement based on drug quantity. 535
U.S. 625, 628 (2002). While defendants'
appeal was pending, the Supreme Court ruled
that a jury must determine the amount of
drugs at issue beyond a reasonable doubt in
order for a district court to apply the
sentencing enhancement. Apprendi v. New
Jersey, 530 U.S. 466, 490 (2000). Because
there was no such requirement prior to the
announcement of the new rule laid out by
Apprendi, neither the district court nor the
government in Cotton asked the jury to make
such a finding. Defendants argued that under
Ex parte Bain, 121 U.S. 1 (1887), a defective
Page 21
indictment stripped the court of jurisdiction.
The Supreme Court explicitly rejected this
argument, holding that the omission of an
element does not affect jurisdiction. Cotton,
535 U.S. at 631 ("Insofar as it held that a
defective indictment deprives a court of
jurisdiction, Bain is overruled."). The
Supreme Court relied on precedents holding
that indictment defects do not implicate

pm

jurisdiction. See, e.g., Williams, 341 U.S. at 65
(holding the fact that "the indictment is
defective does not affect the jurisdiction of the
trial court to determine the case presented by
the indictment."); Lamar v. United States,
240 U.S. 60, 65 (1916) ("The objection that
the indictment does not charge a crime
against the United States goes only to the
merits of the case.").
The Supreme Court further commented
on the tension between the "concept of
subject-matter jurisdiction . . . [which] can
never be forfeited or waived" and the notion
that "the grand jury right can be waived."
Cotton, 535 U.S. at 630. Since indictment can
be waived, it follows that a defect in an
indictment cannot destroy subject matter
jurisdiction. As such, the Supreme Court held
that the omission of the quantity of narcotics
did not deprive the district court of
jurisdiction. Id. at 631.
We have previously considered the
question of whether element omissions in an
indictment create jurisdictional defects, in the
context of guilty pleas where defendants
waived non-jurisdictional challenges. While
Appellants did not plead guilty, our decisions
arising out of guilty pleas are instructive. In
United States v.
Page 22
Brown, the defendant was indicted for one
count of receiving counterfeit money orders
under 18 U.S.C. § 473 and one count of
knowingly importing counterfeit money
orders under 18 U.S.C. § 545. 752 F.3d at
1346. While the second count of the
indictment included a charge of knowingly
violating the statute, the first did not—despite
well-established
precedent
requiring
knowledge. Brown pled guilty to the first
count but not the second. Later, she
challenged her conviction and sentence on the
ground that the district court lacked
jurisdiction because the indictment did not
state a federal crime. Id. at 1347. In rejecting
-10-

United States v. Moore (11th Cir. 2020)

defendant's
argument,
this
Court
differentiated between instances when defects
in indictments strip a court of jurisdiction
and when they do not.

defect meant the district court did not have
jurisdiction. Id. But we rejected that
argument and held that the indictment's
alleged defects, "even if meritorious, would
not implicate the district court's subjectmatter jurisdiction." Id.

The lynchpin for a defect that implicates
jurisdiction is "whether the indictment
charged the defendant with a criminal
'offense[ ] against the laws of the United
States.'” Id. at 1353 (alteration in original)
(quoting 18 U.S.C. § 3231). We noted that an
indictment fails this test where: "(1) a crime ..
. simply did not exist in the United States
Code; (2) [the] conduct . . . undoubtedly fell
outside the sweep of the . . . statute; and (3) a
violation of a regulation that was not intended
to be a 'law' for purposes of criminal liability."
Id. (citations omitted). In other words, when
the indictment itself fails to charge a crime,
the district court lacks jurisdiction. However,
while "[t]he omission of an element may
render the indictment insufficient, ... it does
not strip the district court of jurisdiction over
the case." Id.

We reasoned that "[sjubject-matter
jurisdiction defines the court's authority to
hear a given type of case." Id. (quotation
marks omitted). Since "Congress has
provided the district courts with jurisdiction .
. . of all offenses against the laws of the
United States," and the "indictment charg[ed]
Alikhani with violating laws of the United
States," the district court was empowered to
hear the case. Id. at 734-35
Page 24
(quotation marks omitted). Indeed, this Court
contemplated that since the district court had
jurisdiction, it could "enter judgment upon
the merits of the indictment, such as
dismissing the indictment on the ground that
it does not allege facts showing that the
defendant committed the charged offense."
Id. at 735.

Page 23
at 1353-54. "So long as the indictment charges
the defendant with violating a valid federal
statute as enacted in the United States Code,
it alleges an 'offense against the laws of the
United States' and, thereby, invokes the
district court's subject-matter jurisdiction."
Id. at 1354. Since the indictment merely
omitted the element, we ruled that the district
court had jurisdiction.

This Court has also dealt with similar
jurisdictional challenges following Apprendi.
See United States v. Sanchez, 269 F.3d 1250
(11th Cir. 2001) (en banc), abrogated on
other grounds by United States v. Duncan,
400 F.3d 1297 (11th Cir. 2005); United States
v. Cromartie, 267 F.3d 1293 (11th Cir. 2001);
McCoy v. United States, 266 F.3d 1245 (11th
Cir. 2001). While these decisions predate
Cotton, their reasoning is parallel. In
Sanchez, we held that "[a] jurisdictional
defect occurs only where a federal court lacks
power to adjudicate at all." 269 F.3d at 1273.
To determine whether the federal court has
the power to adjudicate, this Court
differentiated between indictments that
omitted elements and indictments "where a
defect . . . results in the indictment charging
no crime at all." McCoy, 266 F.3d at 1253.

In Alikhani v. United States, the
defendant pled guilty to an indictment
charging him with violating executive orders
and regulations forbidding exports to and
certain transactions with select foreign
nations. 200 F.3d 732, 733 (11th Cir. 2000).
Later, Alikhani challenged his plea, arguing
that the indictment failed to allege he was a
U.S. person, as required by the applicable
executive orders and regulations. Id. at 734.
Since Alikhani's guilty plea siloed him to
jurisdictional challenges, he asserted this
-11-

United States v. Moore (11th Cir. 2020)

at 715. Further, "Peter's innocence of the
charged offense appears from the very
allegations

We explained that jurisdiction cannot be
waived, "as parties cannot confer subject
matter jurisdiction on federal courts by
consent." Sanchez, 269 F.3d at 1274. Since
Federal Rule of Criminal Procedure 7(b)
allows for a defendant to waive prosecution
by indictment, defects in the indictment "do
not go to the district court's

Page 26
made in the superseding information, not
from the omission of an allegation requisite to
liability." Id.

Page 25
subject matter jurisdiction." Id. at 1273-74.
Identical reasoning supports both our McCoy
and Cromartie decisions.
Opinions finding that defects in
indictments do not implicate jurisdiction are
useful given the factual similarities to this
case. Equally instructive are opinions where
we concluded the converse—that a defective
pleading affected jurisdiction.
For example, in United States v. Peter,
the defendant pled guilty to a single count of
conspiring to violate the Racketeer Influenced
and Corrupt Organizations Act. 310 F.3d 709,
711 (11th Cir. 2002). Peter admitted to
misrepresenting license applications he
mailed to the Florida Division of Alcoholic
Beverages and Tobacco, which constituted
mail fraud under 18 U.S.C. § 1341. Id. After
his plea, the Supreme Court decided
Cleveland v. United States, where it held that
"[s]tate and municipal licenses in general . . .
do not rank as 'property,' for purposes of §
1341-" 531 U.S. 12, 15 (2000). Accordingly,
"the facts to which Peter pled guilty did not
constitute a crime under Cleveland." Peter,
310 F.3d at 711.

Appellants are also not the first to
characterize their Rehaif challenges as
jurisdictional. In United States v. Balde,
Balde pled guilty to possessing a firearm as an
illegal alien in the United States. 943 F.3d 73,
79 (2d Cir. 2019). Days after the Second
Circuit affirmed his conviction and sentence,
the Supreme Court decided Rehaif. Like
Appellants here, Balde filed supplemental
briefing challenging the jurisdiction and
merits of his 18 U.S.C. § 922(g) conviction.
The Second Circuit rejected Balde's
jurisdictional argument. The court reasoned
that Rehaif s knowledge requirement "is best
understood as telling us what conduct [the
statute] prohibits and how the statute would
be violated, which is ultimately a merits
question and not one that affects the
jurisdiction of the court to adjudicate the
case." Id. at 90 (quotation marks omitted)
(alteration in original). Further, the
indictment in Balde "closely tracks the
language of the statute while including
specific allegations as to the time, place and
nature of Balde's conduct that is alleged to
constitute a violation of [18 U.S.C.] §
922(g)(5)(A)." Id. at 89.
Ultimately, the law is clear: the omission
of an element in an indictment does not
deprive the district court of subject matter
jurisdiction. A defective indictment only
affects jurisdiction when it fails to allege an
offense against the United States. So long as
the conduct described in the indictment is a
criminal offense, the mere

We distinguished Peter from Cotton and
our post-Apprendi line of cases, "because [the
indictment] charged no crime at all." Id. at
714 (quotation marks omitted). We noted that
"it is clear under these circumstances that the
Government's proof of the alleged conduct,
no matter how overwhelming, would have
brought it no closer to showing the crime
charged than would have no proof at all." Id.

*

r

:

last ,
■_______________________________________________ 1

Page 27
-12-

United States v. Moore (11th Cir. 2020)

omission of an element does not vitiate
jurisdiction. This principle is buttressed by
the fact that defendants can waive their right
to indictment by a grand jury and proceed on
an information of the government. Fed. R.
Crim. P. 7(b). In contrast, subject matter
jurisdiction can never be waived, and a court
can raise that issue sua sponte at any time.
Fort Bend County, Texas v. Davis, 139 S. Ct.
1843, 1849 (2019) ("Unlike most arguments,
challenges to subject-matter jurisdiction may
be raised by the defendant at any point in the
litigation, and courts must consider them sua
sponte." (quotation marks omitted)).

record comes. This question the court is
bound to ask and answer for itself, even when
not otherwise suggested, and without respect
to the relation of the parties to it." (quoting
Great S. Fire Proof Hotel Co. v. Jones, yjj
U.S. 449, 453 (1900)). Had the defect in
Rehaif—the same defect we consider herebeen jurisdictional, the Supreme Court would
have ruled on that ground rather than on the

merits.
Appellants also argue that the district
court lacked jurisdiction because the
indictment failed to track or cite 18 U.S.C. §
924(a)(2). Appellants contend that Rehaif
holds that 18 U.S.C. § 922(g) is not a criminal
offense, and that 18 U.S.C. § 924(a)(2) is the
sole operative statute. Based on that
contention, Appellants assert that the
indictment failed to charge a criminal offense.
But that reading misconstrues Rehaif. The
Supreme Court neither stated nor intimated
that 18 U.S.C. § 922(g) is not a criminal
prohibition. Indeed, the statute provides that
"[i]t shall be unlawful for any person" of
certain delineated statuses to "possess in or
affecting commerce, any firearm or
ammunition . . . ." 18 U.S.C. § 922(g)
(emphasis added). The language "it shall be
unlawful" signals a criminal prohibition. And
18 U.S.C.

The post-Apprendi line of cases is
analogous. While Apprendi dealt with
sentencing enhancements rather than the
conviction itself, the underlying facts
supporting the enhancement—or in this case,
the elements in a criminal offense—must be
alleged in the indictment and proved beyond
a reasonable doubt. See Brown, 752 F.3d at
1351. Appellants’ challenge is effectively
identical to the challenge the Supreme Court
rejected in Cotton. A valid indictment was
returned by the grand jury. An intervening
Supreme Court ruling imposed a new
requirement for a conviction under the
applicable statute. But, as the Supreme Court
held, that new hurdle does not extinguish
jurisdiction.

Page 29
Finally, it is worth noting that the
indictment the Supreme Court evaluated in
Rehaif omitted the mens rea element. Despite
an identical lacuna, the Supreme Court
vacated the conviction on the merits without
addressing subject matter jurisdiction.

§ 924(a)(2) cannot stand alone as the sole
criminal offense, because it is confined to
stating the penalties for violating 18 U.S.C. §
922(g).

Page 28

Therefore, while there was a defect in the
indictment, it did not deprive the district
court of jurisdiction.

And jurisdiction is a threshold issue the
Supreme Court would have considered. See,
e.g., Steel Co. v. Citizens for a Better Env't,
523 U.S. 83, 94 (1998) ("On every writ of
error or appeal, the first and fundamental
question is that of jurisdiction, first, of this
court, and then of the court from which the

b. Plain Error
Appellants additionally challenge the
merits of their conviction in light of Rehaif.
We review that challenge for plain error.
United States v. Vonn, 535 U.S. 55, 59
-13-

United States v. Moore (11th Cir. 2020)

Analyzing the probability of an outcome
under different circumstances is a challenging
endeavor because one has the benefit of
hindsight. But the peculiar facts presented
here mitigate our burden. Both Appellants
previously served lengthy sentences for felony
convictions. More notably, both Appellants
were previously convicted of violating 18
U.S.C § 922(g), the very statute at issue here.
Moore and Miller were sentenced to 92 and
57 months, respectively, for those convictions.
Remarkably, Moore even bears a tattoo of the
number 92 on his left arm, representing the
length of his previous sentence. It is also

(2002); United States v. Rahim, 431 F.3d 753,
756 (11th Cir. 2005) (questions of statutory
interpretation raised for the first time on
appeal are reviewed for plain error).
Appellants must prove that an error occurred
that was both plain and that affected their
substantial rights. See United States v. Olano,
507 U.S. 725, 732 (1993). If they do so, we
may, in our discretion, correct the plain error
if it "seriously affectjs] the fairness, integrity,
or public reputation of judicial proceedings."
Id. (alteration in original) (quotation marks
omitted).
We may consult the entire record when
considering the effect of an error on
appellants’ substantial rights. United States v.
Reed, 941 F.3d 1018, 1021 (11th Cir. 2019);
see also Olano, 507 U.S. at 734 (holding that
ordinarily, for a court to correct unpreserved
error, "the error must have been prejudicial:
It must have affected the outcome of the
district court proceedings.").

Page 31
telling that both Appellants stipulated to their
prior felonies, presumably to keep the jury
from hearing any details of those convictions.
Thus, the record clearly establishes that both
Appellants knew they were felons.
Rehaif has spawned a slew of challenges
in this Circuit. This Court examined a similar
issue in Reed. 941 F.3d at 1022. There, we
rejected Reed's request to set aside his 18
U.S.C. § 922(g) conviction because his eight
prior felonies and 18-year sentence
”establish[ed] that Reed knew he was a felon
[and] he cannot prove that the errors affected
his substantial rights or the fairness, integrity,
or public reputation of his trial." Id. at 1022.
The case at hand presents a similar scenario:
Appellants cannot establish that they were
unaware of their felon status when they
possessed firearms due to the nature of their
prior felonies. Thus, these errors did not
affect Appellants' substantial rights.

Page 30
The Government concedes that the
indictment was deficient. The law at the time
did not require the Government to prove that
Appellants were aware that they were felons
when they possessed the firearms. And
Appellants stipulated—for good reason—that
they were felons prior to trial. Appellants'
stipulation rendered any evidence the
government may have sought to offer
regarding
their
prior
convictions
inadmissible. See Old Chief v. United States,
519 U.S. 172, 180 (1997). As such, there is no
evidence in the record from which the jury
could have found Appellants knew of their
felon status at the time they possessed the
firearms. Accordingly, the error is plain.

III. CONCLUSION
The district court's decision to shackle
Appellants was not plain error. Moreover, the
district court did not abuse its discretion in
addressing the jury note. With respect to the
indictment's omission of the mens rea
element for Appellants' 18 U.S.C. § 922(g)
charges, we conclude that this error did not

However, it is inconceivable—much less
"a reasonable probability"—that Appellants
can show "that, but for the error, the outcome
of the proceeding would have been different."
Molina-Martinez v. United States, 136 S. Ct.
1338,1343 (2016) (quotation marks omitted).
-14-

United States v. Moore (11th Cir. 2020)

deprive the district court of jurisdiction. And
the government's failure to prove the nowrequisite mens rea element did not constitute
a plain error. Finally, upon review of the
record, we
Page 32
conclude
that
Appellants'
remaining
arguments are meritless and warrant no
discussion. Accordingly, we affirm the
judgments of conviction.
AFFIRMED.

Footnotes:
- Honorable William H. Pauley III,
Senior United States District Judge for the
Southern District of New York, sitting by
designation.
r We have considered the other
arguments raised by Appellants and find
them meritless.
^ While the transcript identifies this juror
as "prospective juror," this appears to be a
typographical error.
a* Moreover, in circumstances such as
these, if defendants object during trial, the
district court can rule on their objection and
set forth its reasoning. But by staying silent,
defendants deprive the district court of the
ability to address any concern, had they
objected at trial. Defendants should be
encouraged to lodge objections in the district
court, thereby clarifying issues for a reviewing
court.

-15-

Case: 17-14370

Date ffilsaf:2)9/10/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal l.uscourts.eov

September 10, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 17-14370-CC
Case Style: USA v. Bernard Moore
District Court Docket No: 1:16-cr-20836-PCH-3
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Carol R. Lewis, CC/lt
Phone#: (404) 335-6179
REHG-1 Ltr Order Petition Rehearing

Case: 17-14370

Date part:2)9/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-14370-CC

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
BERNARD MOORE;
DERRICK MILLER,
Defendants - Appellants.

Appeal from the United States District Court
for the Southern District of Florida

BEFORE: ROSENBAUM and TJOFLAT, Circuit Judges, and PAULEY*.
PER CURIAM:
The Petition for Panel Rehearing filed by Appellants Bernard Moore and Derrick Miller is
DENIED.

ORD-41

•Honorable William H. Pauley III, Senior United States District Judge for the Southern District of
New York, sitting by designation.

Case l:16-cr-20836-PCH

Document 194 Entered on FLSD Docket 09/27/2017 Page 1 of 6
Page 1 of 6

USDC FLSD 245B (Rev. 09/08*) - Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
Southern District of Florida
Miami Division
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
Case Number: 16-20836-CR-HUCK-3
USM Number: 79141-004

v.
BERNARD MOORE

Counsel For Defendant: Scott Bennett Saul
Counsel For The United States: Jamie Garman
Court Reporter: Robin Dispenzieri

The defendant was found guilty on counts 1, 3, 4 and 5 of the Third Superseding Indictment.
The defendant is adjudicated guilty of these offenses:
OFFENSE
ENDED

COUNT

TITLE & SECTION

NATURE OF OFFENSE

21 U.S.C. § 846

Conspiracy to possess with the intent to distribute crack
01/10/2016
cocaine, heroin, cocaine, marijuana, ethylone and
hydrocodone

1

21 U.S.C. § 841(a)(1)

Possession with the intent to distribute crack cocaine,
heroin, cocaine, marijuana, ethylone, and hydrocodone

01/10/2016

3

18 U.S.C. § 922(g)(1)

Felon in possession of a firearm and ammunition

01/10/2016

4

18 U.S.C. § 924(c)(1)(A)

Possession of a firearm in furtherance of a drug
trafficking crime

01/10/2016

5

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
The defendant has been found not guilty on count 8sss.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed
by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States
attorney of material changes in economic circumstances.

Date of ImpositioiLQf Sentence: 9/25/2017

Paul C. Huck
United States Senior District Judge

Date: September 26, 2017

Case l:16-cr-20836-PCH

Document 194 Entered on FLSD Docket 09/27/2017 Page 2 of 6

USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: BERNARD MOORE
CASE NUMBER: 16-20836-CR-HUCK-3
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 240 months, which consists of concurrent terms of 180 months as to each of Counts One,
Three, and Four; followed by a consecutive term of 60 months as to Count Five.
The court makes the following recommendations to the Bureau of Prisons:
The Defendant be designated to a facility in or as near to South Florida as possible.
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

DEPUTY UNITED STATES MARSHAL

Case l:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 3 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: BERNARD MOORE
CASE NUMBER: 16-20836-CR-HUCK-3
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 4 years.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance
with the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
1. The defendant shall not leave the judicial district without the permission of the court or probation officer;
2. The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
3. The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
4. The defendant shall support his or her dependents and meet other family responsibilities;
5. The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
6. The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
7. The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
8. The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9. The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted
of a felony, unless granted permission to do so by the probation officer;
10.The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;
11.The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
12.The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
13.As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

Case l:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 4 of 6
USDC FLSD 245B fRev. 09/08) - Judgment in a Criminal Case

Page A of6

DEFENDANT: BERNARD MOORE
CASE NUMBER: 16-20836-CR-HUCK-3
SPECIAL CONDITIONS OF SUPERVISION
Home Detention with Electronic Monitoring - For the first Three (3) months after the defendant is release
from prison he shall reside in Half Way House followed by Six (6) months of home confinement. During this
time, the defendant shall remain at his place of residence except for employment and other activities approved in
advance, and provide the U.S. Probation Officer with requested documentation. The defendant shall maintain a
telephone at his place of residence without ‘call forwarding’, ‘call waiting’, a modem, ‘caller ID’, or ‘call
back/call block’ services for the above period. The defendant shall wear- an electronic monitoring device and
follow the electronic monitoring procedures as instructed by the U.S. Probation Officer. The defendant shall pay
for the electronic monitoring equipment at the prevailing rate or in accordance with ability to pay.
Permissible Search - The defendant shall submit to a search of his person or property conducted in a reasonable
manner and at a reasonable time by the U.S. Probation Officer.
Self-Employment Restriction - The defendant shall obtain prior written approval from the Court before entering
into any self-employment.
Substance Abuse Treatment - The defendant shall participate in an approved treatment program for drug and/or
alcohol abuse and abide by all supplemental conditions of treatment. Participation may include
inpatient/outpatient treatment. The defendant will contribute to the costs of services rendered (co-payment) based
on ability to pay or availability of third party payment.
•■a ft

Unpaid Restitution, Fines, or Special Assessments - If the defendant has any unpaid amount of restitution,
fines, or special assessments, the defendant shall notify the probation officer of any material change in the
defendant’s economic circumstances that might affect the defendant’s ability to pay.

Case l:16-cr-20836-PCH

Document 194 Entered on FLSD Docket 09/27/2017 Page 5 of 6
Page 5 of 6

USDC FLSD 245B (Rev. 09/08^ - Judgment in a Criminal Case

DEFENDANT: BERNARD MOORE
CASE NUMBER: 16-20836-CR-HUCK-3
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Restitution
Fine
Assessment
TOTALS
$0.00
$0.00
$400.00
If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.
NAME OF PAYEE

TOTAL

RESTITUTION

PRIORITY OR

LOSS*

ORDERED

PERCENTAGE

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.
** Assessment due immediately unless otherwise ordered by the Court.

Case l:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 6 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: BERNARD MOORE
CASE NUMBER: 16-20836-CR-HUCK-3
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as
follows:
A. Lump sum payment of $400.00 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the
court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and
the U.S. Attorney's Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES

(INCLUDING DEFENDANT NUMBER!

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

The defendant shall forfeit the defendant’s interest in the following property to the United States: The Preliminary
Order of Forfeiture filed on 7/31/2017(ECF No. 166) is incorporated by reference herein.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

